               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




              City Delivery Route
           Optimization Pilot Initiative

         Management Advisory Report




                                              August 24, 2012
Report Number DR-MA-12-002
                                                                          August 24, 2012

                                                      City Delivery Route Optimization
                                                                         Pilot Initiative

                                                          Report Number DR-MA-12-002



BACKGROUND:                                    Vehicle mileage did not meet targets
The U.S. Postal Service developed the          and the units incurred additional
route optimization concept to respond to       implementation costs. The increased
declining mail volume. The concept             workhours and related costs exceeded
restructures city letter carrier               the gains achieved by reducing routes
assignments by separating a delivery           and vehicles.
unit’s office and street duties.
Traditionally, a carrier cases (or sorts) in   These conditions occurred because of
the office and then loads and delivers         the difficulties in casing mail and mail
the mail on the assigned route. Under          fluctuations; reluctance in some carriers
the route optimization concept, the            participating in the pilot; increased
carrier with the office assignment cases       vehicle usage; lack of management
mail on multiple routes, while other           oversight; and unplanned costs to
carriers only assigned to the street load      implement the pilot. Consequently, the
and deliver the mail on one route.             workforce structure and rules limited the
                                               success of the pilot, and it did not yield a
The Postal Service implemented the             material net savings.
route optimization pilot initiative in two
phases, with Phase 1 beginning in              This review also identified assets at risk
October 2011 and Phase 2 in                    totaling $23,735 in one delivery unit due
February 2012. The U.S. Postal Service         to inadequate asset safeguards.
Office of Inspector General issued a           Management immediately initiated
report supporting a business case for          corrective actions on these security
the concept in March 2011.                     matters.

This report responds to a request from         WHAT THE OIG RECOMMENDED:
the postmaster general and chief               We recommended the vice president,
executive officer. Our objective was to        Delivery and Post Office Operations,
validate savings from the pilot.               discontinue the route optimization pilot
                                               under the existing work environment
WHAT THE OIG FOUND:                            and work rules and execute a new
Our assessment of the route                    initiative to maximize savings by using
optimization pilot indicated there is an       lessons learned and results data from
unfavorable business case for                  the pilot to optimize the full- and
proceeding with the pilot. For the             part-time staff mix.
eight sites we reviewed during the pilot,
office and street workhours increased          Link to review the entire report
with no efficiency improvements.
August 24, 2012

MEMORANDUM FOR:            DEAN J. GRANHOLM
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Management Advisory Report – City Delivery Route
                           Optimization Pilot Initiative
                           (Report Number DR-MA-12-002)

This report presents the results of our review of the City Delivery Route Optimization
Pilot Initiative (Project Number 12XG014DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.

Attachments

cc: Elizabeth A. Schaefer
    Philip F. Knoll
    Vice Presidents, Area Operations
    Corporate Audit and Response Management
City Delivery Route Optimization Pilot Initiative                                                                 DR-MA-12-002




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Route Optimization Pilot .................................................................................................. 3

   Office Time Impact ...................................................................................................... 3

   Street Time Impact ...................................................................................................... 5

   Additional Costs Incurred During the Pilot ................................................................... 8

   Route Optimization Going Forward ............................................................................. 9

Other Issues .................................................................................................................. 11

Recommendations ........................................................................................................ 11

Management’s Comments ............................................................................................ 11

Evaluation of Management’s Comments ....................................................................... 12

Appendix A: Additional Information ............................................................................... 13

   Background ............................................................................................................... 13

   Objective, Scope, and Methodology .......................................................................... 14

   Prior Audit Coverage ................................................................................................. 15

Appendix B: Route Optimization Concept Paper Guidelines ......................................... 16

Appendix C: Lists of Pilot Sites ..................................................................................... 17

Appendix D: Other Impacts ........................................................................................... 19

Appendix E: Management’s Comments ........................................................................ 20
City Delivery Route Optimization Pilot Initiative                                                          DR-MA-12-002




Introduction

This report presents the results of our review of the U.S. Postal Service’s Route
Optimization Pilot Initiative (pilot) (Project Number 12XG014DR000). The report
responds to a request from the postmaster general and chief executive officer to review
the pilot.1 Our objective was to validate cost savings from the pilot. This review
addresses operational risk. See Appendix A for additional information about this audit.

The Postal Service is operating in an environment which has seen increased
automation and decreased mail volume that directly affect carrier office workload as the
number of mailpieces that carriers manually handle diminishes. The Postal Service
faces challenges in developing new concepts for operating in this changing
environment. In March 2011, Delivery Operations officials developed the Route
Optimization Concept paper to respond to the decline in mail volume. The paper
detailed the process for restructuring city letter carrier assignments by separating a
delivery unit’s office casing2 and street duties, where feasible. Traditionally, a city carrier
cases and then delivers the mail on his assigned route. Under the route optimization
concept, the carrier with the office assignment (the caser) cases and pulls down mail on
multiple routes, while the carrier with the street assignment (the deliverer) loads and
delivers the mail on one route (see Appendix B for a description of office and street
assignments). The Postal Service anticipated this concept would ultimately result in
reduced fixed office time, routes, and vehicles.

The Postal Service implemented the pilot in October 20113 in two phases with both
evaluating operations where a carrier was assigned office duties on multiple routes with
another carrier delivering mail on one route.4 Management implemented Phase 1 in
13 city delivery units across four postal areas for a 6-month period with start dates
ranging from October 17 to November 3, 2011. Management implemented Phase 2 in
February 2012 at 35 sites nationwide (see Appendix C for the list of pilot sites). Phase 2
implementation start dates ranged from February 25 to April 14, 2012.




1
  In February 2011, the postmaster general and chief executive officer requested the U.S. Postal Service Office of
Inspector General (OIG) to validate savings for the “100 Percent Street Time” concept. The initiative was initially titled
“100 Percent Street Time” and changed to “Route Optimization” in March 2011. The OIG reviewed data for sites
under both phases of the pilot to validate the data.
2
  Casing duties consists of letter and flat mailpieces manually sorted by letter carriers into the line-of-travel for their
assigned route.
3
  Headquarters officials notified the National Association of Letter Carriers (NALC) union in September and
December 2011 of their intent to implement the pilot.
4
  Phase 1 included only Flat Sequencing System (FSS) sites.
                                                            1
City Delivery Route Optimization Pilot Initiative                                                  DR-MA-12-002




Conclusion

There is an unfavorable business case for proceeding with the pilot.5 During the pilot
period with the focus on eight selected sites,6 the Postal Service successfully created
separate office and street assignments that reduced routes and vehicles.

However, during the pilot we also found:

   An increase in carrier office workhours with no improvement in casing efficiency.

   An increase in carrier street workhours and overtime with no improvement in street
    efficiency.

   Vehicle mileage that did not meet target mileage for the reduced routes and
    vehicles.

   Additional costs incurred to implement the pilot.

The gains achieved during the pilot in reducing routes and vehicles were not enough to
overcome increases in workhours and other associated costs. These conditions
occurred due to:

   Carriers’ steep learning curves and fluctuations in casing mail volume resulting from
    FSS processing issues which increased office workhours.

   A spike in carrier sick leave, increased office time, errors in route adjustments, and
    one official told us some carriers were protesting the concept by deliberately
    performing less efficiently.

   Lack of management oversight at the unit level increased street time.

   Auxiliary assignments and management vehicle usage increasing vehicle mileage.

   Unplanned costs to implement the pilot that was not outlined in the concept paper.

Consequently, the workforce structure and rules limited the success of the pilot, and it
did not yield a material net savings.

This audit also identified assets at risk totaling $23,735 at one delivery unit due to
inadequate asset safeguards (Appendix D). Management immediately initiated
corrective action on these security matters.


5
  Our conclusion for an unfavorable business case is based on the comparison of actual workhours and vehicle
mileage to criteria described in the concept paper.
6
  Four of the selected sites were new FSS sites, and the remaining four were non-FSS sites.

                                                        2
City Delivery Route Optimization Pilot Initiative                                                     DR-MA-12-002




Route Optimization Pilot

The Postal Service implemented the pilot and achieved no office, vehicle mileage,7 or
street savings. The pilot yielded no process efficiencies, and additional costs were
incurred to implement the pilot at some sites.

Office Time Impact

Overall, office workhour savings were not achieved, and office efficiency did not
improve during the pilot. Management expected to improve office efficiency through
reductions in fixed office time8 and more efficient casing. Also, more efficient casing was
expected by reconfiguring (moving) casing equipment to reduce the amount of time
spent walking between cases while completing office duties. We found that
management adjusted routes and reduced the unit's total office time, or office base
hours,9 by removing fixed office time (38 minutes) from as many routes as possible to
create separate caser assignments. At the eight selected sites, fixed office time was
reduced by about 16 hours, which created 47 caser assignments for 160 routes.

Management realized reductions in office workhours during Phase 1 with 26 percent
less hours used over the same period last year (SPLY)10 and no reductions in phase 2.
Although these reductions occurred, further analysis of actual hours in comparison to
the base hours showed savings were not realized as actual hours exceeded base hours
by 52 percent in Phase 1 and 12 percent in Phase 2 (see Table1).




7
  They reduced routes and vehicles for the pilot, but as discussed later in this report, did not realize any savings.
8
  Fixed office time is composed of the administrative duties associated with the route.
9
  Base hours are calculated during the route inspection process to determine the hours needed to complete the office
and street duties on a route. This is also known as the projected time in the Delivery Operations Information System
10
   We compared actual hours to SPLY to review workhour performance under the pilot against the workhour
performance under the traditional operating structure during SPLY; however, we did not base our conclusions
regarding savings on the results of this comparison.

                                                          3
City Delivery Route Optimization Pilot Initiative                                                        DR-MA-12-002




                 Table 1. Summary of Actual, Base, and SPLY Office Hours
                                                                                              Percent        Percent
                                                                                              Variance       Variance
                                                                                                 in             in
                                                       Actual         Base        SPLY         Actual         Actual
                                          Delivery      Office        Office      Office      Hours to       Hours to
     Area             District             Unit         Hours         Hours       Hours        Base           SPLY
                                                     Phase 111
Eastern          Northern Ohio                           4,798          2,691      6,550            78%          -27%
Great Lakes      Central Illinois                        3,179          2,283      4,157            39%          -24%
Northeast        Greater Boston                          4,821          3,294      6,764            46%          -29%
Pacific          San Francisco                           7,933          5,400     10,576            47%          -25%
Total                                                   20,732         13,668     28,047            52%          -26%
                                                                                                             Phase 212
Eastern          Northern Ohio                             1,267        1,067       1,370           19%           -8%
Great Lakes      Central Illinois                          1,261        1,035       1,204           22%            5%
Northeast        Albany                                    1,922        1,956       2,013           -2%           -5%
Pacific          San Francisco                             2,829        2,451       2,642           15%            7%
Total                                                      7,279        6,509       7,229           12%            1%
Source: Enterprise Data Warehouse (EDW.

Office efficiency did not improve during the pilot. As shown in Table 2, our review of the
office percent-to-standard13 indicated casing was less efficient during the pilot in
comparison to SPLY. Percent-to-standard increased by an average of 40 percent in
Phase 1 and 9 percent in Phase 2. We also found that five of the sites did not
reconfigure casing equipment.




11
   We reviewed Phase 1 workhour and performance indicator for the period October 29, 2011 – April 27, 2012.
12
   We reviewed Phase 2 workhour and performance indicator for the period February 25 – April 27, 2012.
13
   Percent-to-standard is determined by dividing actual office hours by standard office hours. By using fewer hours
than standard (percent-to-standard below 100 percent), the office will show it is working at a high efficiency level.

                                                           4
    City Delivery Route Optimization Pilot Initiative                                 DR-MA-12-002




                 Table 2. Office Casing Efficiency Actual and SPLY Percentages
                                                                                         Reconfigured
                                                     Actual          SPLY                  Casing
                                      Delivery      Percent-        Percent-    Percent   Equipment
   Area             District           Unit      to-Standard      to-Standard   Variance During Pilot
                                            Phase 1
Eastern         Northern Ohio                         141.79%         107.56%      32%        Yes
Great Lakes     Central Illinois                      157.06%         115.96%      35%        Yes
                Greater
Northeast       Boston                                  181.42%       113.92%      59%        No
Pacific         San Francisco                           157.86%       117.81%      34%        No
Total
Average                                                 159.53%       113.81%      40%
                                              Phase 2
Eastern         Northern Ohio                           122.33%       115.53%       6%        No
Great Lakes     Central Illinois                        117.25%       105.70%      11%        Yes
Northeast       Albany                                   98.73%        96.09%       3%        No
Pacific         San Francisco                           123.90%       108.62%      14%        No
Total
Average                                                 115.55%       106.48%       9%
 Source: EDW.

    An examination of workhours in Phase 1 was difficult, because only new FSS sites were
    included, which made setting a baseline difficult. Area and district officials stated that
    the Phase 1 sites did not demonstrate the potential for increased office efficiency due to
    the fluctuations in cased mail volume from FSS processing issues. Because
    management implemented FSS and the pilot simultaneously, it was difficult to
    distinguish which initiative had the greater impact on workhour performance for Phase
    1. Although site selection expanded to include non-FSS sites in Phase 2, area and
    district officials stated that workhour savings did not occur due to the learning curve for
    carriers casing multiple routes. In both phases, casers received assistance from
    deliverers to complete casing duties timely.

    Street Time Impact

    Our review found an increase in carrier street workhours and overtime, amounting to no
    savings in both phases of the pilot. Management expected to expand street time by
    creating full-time street assignments and anticipated more consistent delivery times
    through reductions in overtime and delivery inconsistencies associated with splitting
    routes among several carriers in the unit.

    We found that management adjusted routes, the delivery unit’s total street time value, or
    street base hours by removing all office time except clocking in, signing for keys,
    obtaining accountable mail and scanners, receiving instructions, and conducting vehicle
    safety checks. To create full-time street assignments, street time was added to routes



                                                        5
         City Delivery Route Optimization Pilot Initiative                                           DR-MA-12-002



         based on the amount of office time removed. Based on the eight sites, management
         created 117 full-time street assignments on 160 routes and assigned about
         4 hours of street time from the remaining routes to casers who also assisted with street
         delivery. However, our analysis of the street workhour data indicated no workhour
         savings in either phase of the pilot. Specifically:

            Actual hours exceeded base hours and SPLY by 13 and 5 percent, respectively,
             during Phase 1.

            During Phase 2, actual hours exceeded base hours by 3 percent while SPLY was
             exceeded by less than 1 percent.

            Actual overtime hours exceeded SPLY in Phases 1 and 2 by 38 and 41 percent,
             respectively (see Table 3).

                         Table 3. Summary of Actual, Base, and SPLY Street Hours
                                                                      Percent
                                                                     Variance     Percent
                                                                     in Actual   Variance
                                   Actual     Base       SPLY          Hours     in Actual Actual   SPLY
                     Delivery      Street     Street     Street          to      Hours to Overtime Overtime Percent
 Area    District     Unit         Hours      Hours      Hours         Base        SPLY    Hours    Hours   Variance
                                                              Phase 1
        Northern
Eastern Ohio                       27,623     24,701     27,684           12%      -0.20%    5,852        5,719      2%
Great   Central
Lakes Illinois                     16,796     16,151     15,714            4%         7%     2,448        1,434     71%
North- Greater
east    Boston                     19,589     18,269     18,859            7%         4%     4,208        2,811     50%
        San
Pacific Francisco                  32,731     26,831     29,590           22%        11%     7,003        4,208     66%
Total                              96,739     85,950     91,847           13%         5%    19,511      14,172      38%
                                                              Phase 2
        Northern
Eastern Ohio                         5,903      5,848        6,051         1%        -2%      577          382      51%
Great   Central
Lakes Illinois                       5,723      5,445        5,593         5%         2%     1,331         641      108%
North-
east    Albany                       8,587      8,247        8,496         4%         1%     1,559        1,420     10%
        San
Pacific Francisco                   8,159      7,878      7,996            4%         2%       943          690     37%
 Total                             28,373     27,418     28,136            3%      0.80%     4,411        3,134     41%
         Sources: OIG and EDW.




                                                                 6
City Delivery Route Optimization Pilot Initiative                                                          DR-MA-12-002



Furthermore, street process efficiencies were not realized. We analyzed deliveries per
hour (DPH)14 and carriers returning after 5 p.m.15 to measure street delivery efficiency
before and during the pilot. Our analysis showed there was minimum impact to street
delivery service during the pilot compared to SPLY, as DPH increased slightly — by
4 percent in Phase 1 and 1 percent in Phase 2 (see Table 4). However, carriers
returning after 5 p.m. increased by 76 percent and less than 7 percent during Phases 1
and 2, respectively.

               Table 4. Summary of DPH and Carriers Returning After 5 p.m.
                                                                        Actual SPLY
                                                                       Carriers Carriers
                                      Delivery      Actual SPLY Percent After    After   Percent
     Area            District          Unit          DPH DPH Variance 5 p.m. 5 p.m. Variance
                                                       Phase 1
Eastern         Northern Ohio                          49     48    3%   2,512    1,109    127%
Great
Lakes           Central Illinois                        64         61           5%         615            81       659%
                Greater
Northeast       Boston                                  68     65               5%         508          213        138%
Pacific         San Francisco                           55     53               3%       2,164        1,900         14%
Total                                                  237    228               4%       5,799        3,303         76%
                                                        Phase 2
Eastern         Northern Ohio                           62     62               0%           89           28       218%
Great
Lakes           Central Illinois                        57        56            2%         187           32        484%
Northeast       Albany                                  79        77            2%         282          425        -34%
Pacific         San Francisco                           57        57            0%         308          322         -4%
 Total                                                 255       253            1%         866          807          7%
Sources: OIG and EDW.

District officials stated that minimal impact to delivery service occurred because there
was no change to street operations except for carriers delivering mail for a longer
period. However, management stated that increased workhours and overtime were due
to carrier sick leave, increases in office time, errors in Carrier Optimal Route16
adjustments, vacant routes,17 and some carriers protesting the concept by deliberately
performing less efficiently, and lack of management oversight at the unit level.

Vehicle mileage did not meet target mileage for the reduced routes and vehicles. Based
on our review, management reduced 14 routes and six vehicles18 at the selected sites
after completing the pilot route adjustments and used fewer miles in comparison to
14
   DPH is the cumulative deliveries divided by total city delivery workhours over a given period.
15
   A carrier’s return time is based upon a combination of their leaving time, the route’s street time, and any additional
street duties assigned to the carrier for that day. The goal is that all carriers return by 5 p.m.
16
   A management tool that assists with adjusting letter carrier routes.
17
   These routes have no permanent carrier assigned. Supervisors manage vacant routes by distributing the workload
among other carriers (pivoting), using available part-time staff, or carriers on their over-time desired list,
18
   The vehicles removed from the sites as part of the pilot will be returned at the end of the pilot when the sites revert
to their traditional route structure.


                                                             7
City Delivery Route Optimization Pilot Initiative                                                       DR-MA-12-002



SPLY.19 However, our analysis showed that actual mileage exceeded base mileage by
31 percent in Phase 1 and 20 percent in Phase 2 (see Table 5). Although vehicles were
transferred, cost for fuel and maintenance were still incurred.

                    Table 5. Summary of Actual, Base, and SPLY Vehicle Mileage
                                                                                         Percent   Percent
                                                                                        Variance Variance in
                                                       Pilot   Pilot                    in Actual   Actual
                                      Delivery        Actual   Base              SPLY Mileage to Mileage
     Area            District          Unit           Mileage Mileage           Mileage   Base    Over SPLY
                                                       Phase 1
                  Northern
 Eastern          Ohio                                 39,504       30,451        49,292           30%               -20%
 Great            Central
 Lakes            Illinois                             44,653       32,792        42,295           36%                 6%
                  Greater
 Northeast        Boston                               53,279       43,198        62,472           23%               -15%
                  San
 Pacific          Francisco                            46,210 33,515    61,243                     38%               -25%
 Total                                                 183,646 139,956 215,302                      31%               -15%
                                                       Phase 2
                  Northern
 Eastern          Ohio                                 10,640         9,526       12,216           12%               -13%
 Great            Central
 Lakes            Illinois                              9,435         9,298       10,886            1%               -13%
 Northeast        Albany                               12,510         8,868       12,878           41%                -3%
                  San
 Pacific          Francisco                            16,245       12,894        16,315           26%               -0.4%
 Total                                                 48,830        40,586       52,295           20%                 -7%
Sources: OIG and EDW.

District officials stated that additional vehicles were assigned to allow for carrier auxiliary
assistance with street delivery and street supervision and might have contributed to
additional mileage.

Additional Costs Incurred During the Pilot

Additional costs were incurred to implement the pilot at some of the selected sites. The
concept paper did not contain details pertaining to costs to implement the pilot;
however, one district incurred $50,000 in costs to restructure the transportation network
in order for mail to arrive at the selected unit in time for casers to prepare the mail for
delivery. Additionally, carriers filed grievances for out-of-schedule premium pay due to
time worked outside of their regularly scheduled workday, which may result in additional
pay to these carriers.


19
  The reduction in routes and vehicles for Phase 1 are directly related to the pilot and do not include reductions
associated with FSS adjustments.

                                                           8
City Delivery Route Optimization Pilot Initiative                                                           DR-MA-12-002



Route Optimization Going Forward

There is potential for the pilot concept to achieve significant savings if the Postal
Service had more workforce flexibility built into the labor agreement. In March 2011, the
OIG issued a report supporting a business case for the Postal Service to separate office
and street duties using part-time staff to perform office assignments.20 Our analysis also
showed that the pilot was successful in locations where there was more flexibility in
using part-time staff. Additionally, we obtained a cost model from one district that
demonstrated the reduction of carriers, routes, and vehicles under the concept.21 The
model shows the reduction of routes from 41 to 36, with an equivalent number of
vehicles and seven22 carrier positions. The district concluded that the changes would
result in annual savings of $611,00023 from the reduced fixed office time associated with
fewer carriers casing mail.

The Postal Service could maximize workhour savings by using part-time letter carriers
for office assignments and full-time carriers for street assignments. Although our
analysis of the pilot data indicated a reduction in routes and vehicles, district officials
could not reduce full-time staff use or maximize part-time staff use due to the letter
carrier labor agreement restrictions.24

Based on our analysis of workhours and staff, discussed earlier in the report, the Colvin
delivery unit used six part-time casers and showed actual office workhour savings
compared to base and SPLY office hours of 2 and 5 percent, respectively.25 As
mentioned before and shown in Table 6, the Colvin delivery unit demonstrated that
savings could be achieved with increased flexibility in part-time staff use.




20
   Benchmarking Mail Distribution to Mail Carriers (Report Number EN-MA-11-001, dated March 25, 2011).
21
   The model was not used during the pilot.
22
   This includes five regulars, one T-6 (a carrier who is assigned to a string of five different regular routes and carries
these routes on the off day of the regular carrier), and one part-time/transitional carrier.
23
   The annual savings figure is based on a projected carrier performance of 90 percent-to-standard in the office. The
same reduction in carriers, routes, and vehicles would occur if carriers performed at 100 percent-to-standard;
however, the annual savings would be reduced to $580,000.
24
   A national level arbitration award established that management may not assign employees across crafts except in
the restrictive circumstances defined in the agreement. Management cannot cross craft lines to maximize efficient
use of personnel.
25
   Management stated that the local union allowed more flexibility in assigning part-time staff.

                                                             9
City Delivery Route Optimization Pilot Initiative                                                        DR-MA-12-002




               Table 6. Summary of Carrier Staffing and Caser Assignments
                                                                                                    Number
                                                                                                       of          Number
                                                  Number               Number        Number         Limited/         of
                                                   of Full-            of Part-      of Part-        Light-        Cross-
                                      Delivery      Time                Time          Time            Duty          Craft
     Area           District           Unit       Carriers             Carriers      Casers         Carriers        Staff
                                               Phase 1
                 Northern
 Eastern         Ohio                                            23              5             1              0         0
 Great           Central
 Lakes           Illinois                                       1826             3             0              0         0
                 Greater
 Northeast       Boston                                          18              0             0              0         0
                 San
 Pacific         Francisco                                       33             6              0              0         0
 Total                                                           92            14              1              0         0
                                                   Phase 2
                 Northern
 Eastern         Ohio                                            17              5             0              0         0
 Great           Central
 Lakes           Illinois                                       1827            3              0              1         0
 Northeast       Albany                                          19            10              6              0         0
                 San
 Pacific         Francisco                                       26             8              0              0         0
 Total                                                           80            26              6              1         0

 Grand
 Total                                                          172            39              7              1         0
Source: Postal Service.

However, management could not reduce staff, maximize use of part-time staff, or cross
craft during the pilot due to labor agreement restrictions. District officials stated that
using part-time staff and assigning caser positions based on the criteria of “best-
qualified”28 instead of seniority would help increase savings. Moreover the city letter
carrier national labor agreement requires full-time carriers to be paid for 8 hours of work
per day even if their actual work day consists of fewer than 8 hours. Part-time carriers
have flexible schedules of less than 8 hours per day. Due to the labor agreement’s
seniority requirements, part-time carriers might not be eligible to perform office
assignments.

Headquarters officials recognize the potential savings that could result from reducing
carriers and using part-time carriers in the office assignment; however, they focused on

26
   The number of full-time carriers includes two T-6 carries and two unassigned regulars.
27
   The number of full-time carriers includes three T-6 carriers.
28
   Best qualified positions are those awarded to the applicant whose total qualifications, rated against the job
requirements, best meets the qualifications for the position as determined by management.

                                                           10
City Delivery Route Optimization Pilot Initiative                                                 DR-MA-12-002



restructuring carrier assignments during the pilot. Headquarters officials stated the goal
for implementing the pilot was to understand how to manage within the existing work
rules, and they did not anticipate cost savings due to limitations in restructuring the staff.
Also, headquarters officials stated they included sites with vacant routes to absorb
workhours to simulate staff reductions.

Consequently, the workforce structure and rules limited the success of the pilot.
Additionally, the gains achieved during the pilot in reducing routes and vehicles were
not great enough to overcome increases in workhours and other associated costs.

Other Issues

Physical access control and safeguarding of assets require additional management
attention. Specifically, at Colvin delivery unit, stamp stock inventory and cash were not
properly safeguarded, and safes were not properly locked.29 One safe contained stamp
stock inventory and cash valued at $23,735.30 Physical access controls reduce the
security risk of Postal Service employees while safeguarding controls reduce the
potential for loss or misappropriation of assets. We brought these control issues to the
attention of station managers, supervisors, or other personnel who took immediate
action to correct the situation. As a result, we are making no recommendations on these
issues.

Recommendations

We recommend the vice president, Delivery and Post Office Operations:

1. Discontinue the route optimization pilot under the existing work environment and
   work rules.

2. Execute a new initiative to maximize savings by using lessons learned and data
   results from the pilot with the goal of optimizing the full- and part-time staff mix.

Management’s Comments

Management generally agreed with the findings and recommendations.

For recommendation 1, management stated they ended the pilot effective June 30,
2012. Field managers and the OIG were informed of the decision.

Regarding recommendation 2, management stated they would like to test the concept
discussed in the report, without the current labor restrictions; however, they are bound
by the contract obligations. Further, future testing would be in a different labor
environment with changes in their current flexibility. In addition, management stated

29
   Handbook F-101, Field Accounting Procedures, May 2012 establishes that safes are required to be locked except
when authorized personnel are getting their contents for use.
30
   There was $3,561.64 in working stamps, $19,873.74 in stamp reserve, and about $300 in daily operating cash.

                                                       11
City Delivery Route Optimization Pilot Initiative                               DR-MA-12-002



they are committed to striving for more flexibility in conjunction with the Labor Relations
Group in contract negotiations and upcoming interest arbitration with the National
Association of Letter Carriers (NALC). See Appendix E for management’s comments in
their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Regarding recommendation 1, the OIG reviewed management’s documentation and
concurs that this action sufficiently addresses the recommendation. The OIG considers
the recommendation closed with the issuance of this report. The OIG considers
recommendation 2 significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective action is
completed. This recommendation should not be closed in the Postal Service’s follow-up
tracking system until the OIG provides written confirmation that the recommendation
can be closed.




                                                    12
City Delivery Route Optimization Pilot Initiative                                     DR-MA-12-002



                                Appendix A: Additional Information

Background

The Postal Service faces the most difficult operating period in its 235-year history. Mail
volume in fiscal year (FY) 2011 declined by 3 billion pieces to 168 billion, dropping total
mail volume to levels not seen since 1992. Since 2007, mail volume has dropped by
about 44 billion pieces. The Postal Service must improve operational efficiency to
reduce costs while facing financial losses from declining mail volumes.

Delivery operations are the highest fixed cost in the system, making up more than
30 percent of the Postal Service’s operating expenses. As shown in Table 7, cased
letter and flat mail volumes experienced annual declines from FYs 2007-2011 with
letters declining by 63 percent and flats by 31 percent. In view of these trends, the
Postal Service recognizes the need to explore options to the traditional office and street
assignment structure where a city carrier cases and delivers mail on one route
assignment.

                 Table 7. Cased Letter and Flat Mail Volumes FYs 2007-2011
                                                                                      Letter     Flat
                                                                                     Percent Percent
                                                                                     Change Change
                                                         Letter      Flat Difference Over the Over the
                                                    Difference Over Over the Prior    Prior    Prior
 Fiscal Total Cased               Total Cased       the Prior Fiscal   Fiscal Year    Fiscal   Fiscal
  Year     Letters                   Flats           Year (Pieces)      (Pieces)       Year     Year
 2007 13,337,278,015             27,803,008,447
 2008   9,263,653,899            25,789,835,425     -4,073,624,116   -2,013,173,022    -31%      -7%
 2009   6,332,941,862            22,035,202,866     -2,930,712,037   -3,754,632,559    -32%     -15%
 2010   5,648,251,937            21,185,236,639       -684,689,925     -849,966,227    -11%      -4%

  2011       4,987,286,253       19,258,535,231       -660,965,684   -1,926,701,408    -12%      -9%

  Total                                             -8,349,991,762   -8,544,473,216    -63%     -31%
Source: EDW...

In June 2010, the Postal Service presented the Postal Regulatory Commission with the
“100 Percent Street Time” concept as part of its operational strategy for responding to
the dramatic decline in mail volume by minimizing office time and maximizing street
time. The Postal Service and the NALC began negotiating a memorandum of
understanding to jointly develop and pilot the concept during FY 2011. The Postal
Service developed a concept paper outlining the general guidelines for site selection,
establishing office time and caser assignments, and establishing street time and
delivery assignments. The Postal Service initially planned to jointly conduct the pilot with




                                                     13
City Delivery Route Optimization Pilot Initiative                                                   DR-MA-12-002



the NALC; however, they could not agree on site selection so the Postal Service moved
forward with a separate pilot31 in October 2011.

Objective, Scope, and Methodology

Our objective was to validate savings from the pilot. To accomplish our objective, we:

    Reviewed the pilot concept paper and other guidance used for implementation of the
     pilot.

    Interviewed Postal Service Headquarters, area, and district officials to discuss
     issues related to the development, implementation, and oversight of the pilot.

    Conducted site visits to eight judgmentally selected delivery units participating in
     Phases 1 and 2 of the pilot to observe implementation of the concept.

    Analyzed route, workhour, and vehicle information to assess whether cost savings
     were realized or not realized. Data analyzed for Phase 1 represented the pilot time
     period October 29, 2011–April 27, 2012, and Phase 2 represented pilot period
     February 25–April 27, 2012.

We conducted this review from February through August 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on July 9, 2012, and included their comments where appropriate.

We assessed the reliability of EDW data by confirming the results with Postal Service
officials. We determined that the data were sufficiently reliable for the purposes of this
report.




31
  Implementation of the route optimization pilot supports the Delivery Optimization DRIVE (Delivering Results,
Innovation, Value, and Efficiency) initiative to optimize carrier routes by reducing office time and the number of
routes. DRIVE is a management process the Postal Service is using to improve business strategy development and
execution.

                                                        14
  City Delivery Route Optimization Pilot Initiative                                      DR-MA-12-002



  Prior Audit Coverage

  The OIG identified two audit reports related to our objective.

                                              Final
                         Report              Report      Monetary
 Report Title            Number               Date         Impact             Report Results
National             DR-MA-11-002          7/19/2011    $88,192,128    Our benchmarking comparison
Assessment of                                                          determined that 21 districts
City Delivery                                                          operated at a percent to
Efficiency-                                                            standard above the national
Office                                                                 average by using more minutes
Performance                                                            per route than the average
                                                                       carrier route in the nation. If the
                                                                       Postal Service’s least
                                                                       productive districts were
                                                                       brought up to the average
                                                                       productivity level, it could save
                                                                       more than $88 million in 1 year.
                                                                       Management agreed with the
                                                                       finding and recommendations
                                                                       but disagreed with the source
                                                                       system (eFlash) used for
                                                                       calculating workhour savings.
Benchmarking         EN-MA-11-001          3/25/2011    $518,517,277   We reported that having
Mail                                                                   part-time employees case and
Distribution to                                                        prepare mail within delivery
Carriers                                                               units could result in annual
                                                                       reduced workhour costs and
                                                                       greater flexibility for the Postal
                                                                       Service. Additional savings
                                                                       could be generated from carrier
                                                                       route adjustments resulting in
                                                                       longer routes and less office
                                                                       time for the carriers.
                                                                       Management disagreed with
                                                                       the recommendation and
                                                                       monetary impact, because the
                                                                       letter carrier labor agreement
                                                                       restricts their ability to
                                                                       implement the
                                                                       recommendation.




                                                       15
City Delivery Route Optimization Pilot Initiative                                         DR-MA-12-002




                Appendix B: Route Optimization Concept Paper Guidelines

                Caser Office Assignment                  Deliverer Street Assignment
            Average office time should be           Average street time should be
             3 hours and 15 minutes.                  7 hours and 30 minutes.

            Divide the earned office time by        Divide total street time by the length
             the total office window of               of street time to determine the
             operation time.                          number of deliverers.

            Casing configuration should be          Start time between 8:40-9 a.m.
             reconfigured in U-shape or a line
             to maximize casing time.                Obtain accountable items and
                                                      scanner.
            Start time at 6 a.m.
                                                     Conduct vehicle checks.
            Case and prepare the mail for
             three to four routes.                   Load vehicle.

            Pull down and withdraw mail.            Deliver mail on route.

            May have 3-5 hours of street
             delivery for full-time carriers.
            Source: Postal Service.




                                                    16
  City Delivery Route Optimization Pilot Initiative                                                       DR-MA-12-002



                                                      Appendix C: Lists of Pilot Sites

       Area                District             Delivery Unit     Pilot Start Date           Pilot End Date     FSS Site
                                                        Phase 1
                   Philadelphia                                       10/29/11                   5/1/12            √
                   Philadelphia                                       10/29/11                   5/1/12            √
  Eastern
                   Northern Ohio                                      10/26/11                  5/18/12            √
                   Northern Ohio                                      10/27/11                  5/18/12            √
Great Lakes        Central Illinois                                   10/27/11                   5/5/12            √
                   Greater Boston                                      11/1/11                  4/26/12            √
 Northeast         Connecticut Valley                                 10/29/11                   3/3/12            √
                   Northern New Jersey                                10/29/11                  6/27/12            √
                   Los Angeles                                        10/31/11                  6/10/12            √
                   San Diego                                           11/3/11                  7/26/12            √
   Pacific         San Diego                                          10/26/11                  7/26/12            √
                   San Francisco                                      10/18/11                  7/11/12            √
                   Santa Ana                                          10/29/11                   6/2/12            √
                                                               32
                                                       Phase 2
                   Northern Virginia                                   2/25/12                 6/22/2012           √
Capital Metro      Northern Virginia                                   3/20/12                 6/22/2012           √
                   Mid Carolinas                                       3/28/12                 6/22/2012
                   Appalachian                                         3/10/12                 6/22/2012
                   Central Pennsylvania                                2/27/12                 6/22/2012
                   Cincinnati                                          3/17/12                 6/22/2012
                   Kentuckiana                                         2/29/12                 6/22/2012
                   Northern Ohio                                       2/29/12                 6/22/2012
                   Philadelphia                                                                6/22/2012
  Eastern
                   Metropolitan                                           2/28/12
                   Tennessee                                              2/25/12              6/22/2012
                   Western New York                                       2/25/12              6/22/2012
                   Western                                                                     6/22/2012
                   Pennsylvania                                           2/15/12
                   South Jersey                                           2/25/12              6/22/2012
                   Lakeland                                               2/25/12              6/22/2012
                   Gateway                                                2/25/12              6/22/2012
                   Gateway                                                2/25/12              6/22/2012
                   Central Illinois                                       2/25/12              6/22/2012
Great Lakes
                   Greater Indiana                                        3/17/12              6/22/2012
                   Detroit                                                2/25/12              6/22/2012
                   Greater Michigan                                        3/3/12              6/22/2012
                   Greater Michigan                                        3/3/12              6/22/2012
                   Albany                                                 2/25/12              6/22/2012
 Northeast
                   Northern Northeast                                     2/25/12              6/22/2012
                   Santa Ana                                               3/3/12              6/22/2012
                   Santa Ana                                              2/25/12              6/22/2012
                   San Francisco                                          2/28/12              6/22/2012
   Pacific         San Francisco                                          2/28/12              6/22/2012
                   Honolulu                                                3/1/12              6/22/2012
                   Sacramento                                             3/31/12              6/22/2012
                   Sacramento                                             2/25/12              6/22/2012
  Southern         Suncoast                                               2/25/12              6/22/2012           √

  32
       The Postal Service notified the NALC in June 2012 the pilot was being discontinued.

                                                             17
    City Delivery Route Optimization Pilot Initiative                                         DR-MA-12-002



      Area                District             Delivery Unit    Pilot Start Date   Pilot End Date   FSS Site
                                                         Phase 2 Continued
                  Suncoast                                          2/25/12          6/22/2012         √
                  Suncoast                                          2/25/12          6/22/2012         √
                  Houston                                           4/14/12          6/22/2012
                  Dakotas                                           3/10/12          6/22/2012
                  Mid-America                                       3/15/12          6/22/2012         √
    Western       Portland                                          3/10/12          6/22/2012
                  Salt Lake City                                    3/10/12          6/22/2012
                  Seattle                                           3/24/12          6/22/2012
Source: Postal Service Headquarters.




                                                          18
City Delivery Route Optimization Pilot Initiative                                                DR-MA-12-002



                                    Appendix D: Other Impacts

This audit also identified assets at risk totaling $23,735 at one delivery unit due to
inadequate asset safeguards. Management immediately initiated corrective action on
these security matters.

              Finding                                Impact Category                        Amount
        Safeguarding of Assets                        Assets at Risk33                       $23,735




33
   Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.

                                                      19
City Delivery Route Optimization Pilot Initiative              DR-MA-12-002



                           Appendix E: Management’s Comments




                                                    20
City Delivery Route Optimization Pilot Initiative        DR-MA-12-002




                                                    21
